                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 111030010                                                                  Page 1 of 1



         An agency 1 reported that an employee2 of a company3 was under investigation for making false
         statements in connection with federal awards. The agency requested we review the awards made
         by the agency4 and NSF s to the company, and the underlying proposals, to determine whether the
         employee sought duplicate funding from multiple agencies for essentially the same research,
         while certifying to each agency that the proposed research was original.

         An OIG review found no evidence the company submitted duplicate research proposals to the
         agency and NSF, and no evidence of false statements about the research. Accordingly, this
         investigation is closed.




         2


         4




NSF OIG Form 2 (11102)
                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 111030010                                                                  Page 1 of 1



         An agency 1 reported that an employee2 of a company3 was under investigation for making false
         statements in connection with federal awards. The agency requested we review the awards made
         by the agency4 and NSF 5 to the company, and the underlying proposals, to determine whether the
         employee sought duplicate funding from multiple agencies for essentially the same research,
         while certifying to each agency that the proposed research was original.

         An OIG review found no evidence the company submitted duplicate research proposals to the
         agency and NSF, and no evidence of false statements about the research. Accordingly, this
         investigation is closed.




         2


         4




NSF OIG Form 2 (11102)
                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: 111030010                                                                  Page 1 of 1



         An agency 1 reported that an employee2 of a companl was under investigation for making false
         statements in connection with federal awards. The agency requested we review the awards made
         by the agency4 and NSF 5 to the company, and the underlying proposals, to determine whether the
         employee sought duplicate funding from multiple agencies for essentially the same research,
         while certifying to each agency that the proposed research was original.

         An OIG review found no evidence the company submitted duplicate research proposals to the
         agency and NSF, and no evidence of false statements about the research. Accordingly, this
         investigation is closed.




         2


         4




NSF OIG Fonn 2 (11102)
